                                                     OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0
                Reporting Entity: Department of State ‐ OIG
              Month Ending Date: 08/31/2009

                                                     Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau              Recovery Act TAFS          Obligation Type      US Indicator         State Code       Total Obligations   Total Gross 
                                                                                                           (ONLY for grants                         Outlays
                                                                                                           and cooperative 
No.                                                                                                          agreements)
      Department of State ‐ OIG    (19‐0530 2009 \ 2010) State ‐     Contracts and          Y ‐ US
                                   OIG ‐ Recovery Act               Orders (including 
                                                                     modifications)
  1                                                                                                                                 $37,608.12
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                         Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau           Non‐Recovery Act TAFS          Total FY 2009       Total FY 2009      Total FY 2010       Total FY 2010 
No.                                                                   Obligations        Gross Outlays       Obligations        Gross Outlays
  1 Department of State ‐ OIG      (19-0529 2009) State - OIG                 $59,536            $59,536
  2
  3
  4
  5
  6
  7
  8
  9
 10




                                                                                                                      State OIG ARRA Monthly Report August 2009.xls
                                                                                               OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 4) Version 4.0
          Reporting OIG: Department of State ‐ OIG
      Month Ending Date: 8/31/2009

     # of FTE Working on Recovery                                  Testimonies:
          Newly Hired FTE 
                             0.00                        Provided (monthly):               0
             (cumulative):

FTE Funded by Recovery 
                                     0.00             Provided (cumulative):               0
 Act Funds (cumulative):

       FTE Not Funded by 
      Recovery Act Funds             0.00
            (cumulative):

                Complaints                          Whistleblower Reprisal Allegations                               Investigations                    Audits / Inspections / Evaluations /          Training / Outreach
               Monthly Data                                   Monthly Data                                           Monthly Data                                 Monthly Data                          Monthly Data
                                                                                                                                                                                                     Training Sessions 
                   Received:           0                              Received:            0                                Opened:            0         Initiated (this month):      1                                         0
                                                                                                                                                                                                             Provided:
                                                                                                                                                       In Process (as of the end 
                                                                      Accepted:            0                                  Active:          0                                      3           Individuals Trained:          0
                                                                                                                                                                 of the month):
                                                                                                                                                               Completed Final 
                                                                                                                                                                                                     Hours of Training 
                                                                                                                Pending Decision:              0               Published Work         0                                         0
                                                                                                                                                                                                            Provided:
                                                                                                                                                                       Products:
                                                                                                                                                                Priority Interim 
                                                                                                                                                                                                   Outreach Sessions 
                                                                                                          Closed without Action:               0               Published Work         0                                         0
                                                                                                                                                                                                         Conducted:
                                                                                                                                                                       Products:
                                                                                                                    Accepted for                             Unpublished Work 
                                                                                                                                               0                                      0
                                                                                                                    Prosecution:                                     Products*:
                                                                                                             Prosecution Denied:               0

                                                                                                        Referred for Alternative 
                                                                                                                                               0
                                                                                                                     Resolution:

  Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009                Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009
                                                                                                                                                             Completed Final 
                                                                                                                                                                                                     Training Sessions 
                   Received:           0                              Received:            0              Closed without Action:               0             Published Work        0                                            0
                                                                                                                                                                                                             Provided:
                                                                                                                                                                    Products:
                                                                                                                                                              Priority Interim 
                                                                                                                      Accepted for 
                                                                      Accepted:            0                                                   0             Published Work        0              Individuals Trained:          0
                                                                                                                      Prosecution:
                                                                                                                                                                    Products:
                                                                                                                                                          Unpublished Work                           Hours of Training 
                                                                                                             Prosecution Denied:               0                                   0                                            0
                                                                                                                                                                   Products*:                               Provided:

                                                                                                        Referred for Alternative                                                                   Outreach Sessions 
                                                                                                                                               0             Cumulative Total:        0                                         0
                                                                                                                     Resolution:                                                                         Conducted:

                                                                                                               Cumulative Total:               0



*These work products were not published because they contain proprietary or other sensitive information that cannot be made available
                                                                                                                            available to the public.                                               State OIG ARRA Monthly Report August 2009.xls
                                       OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 3 of 4) Version 4.0
      Reporting OIG: Department of State ‐ OIG
  Month Ending Date: 08/31/2009

       No.                     OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            Awarded contract for audit of IBWC’s tracking and reporting of funds provided by ARRA
        2            Reviewed Department comments on three draft ARRA project reports
        3            Provided RATB survey on contract and grant staffing and qualifications to the Department of State for completion
        4
        5
        6
        7
        8
        9
       10

       No.                                    OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
        1            Initiate audits of Department and IBWC tracking and oversight of ARRA funding
        2            Award contract for audit of State Department's tracking and reporting of funds provided by ARRA
        3
        4
        5
        6
        7
        8
        9
       10




                                                                                                      State OIG ARRA Monthly Report August 2009.xls
                                                                         OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 4) Version 4.0
  Reporting OIG: Department of State ‐ OIG
   Month Ending 
                 08/31/2009
           Date:

                                                                               TRAINING ACTIVITIES
                                                                                                                  Length of                             Presentation    Average
                                                 Target                            Training Location   Date of                 Number of     Cost of
      No.              Type of Training                        Title of Training                                  Training                               with Other    Evaluation
                                                Audience                              (City, State)    Training               Participants   Training
                                                                                                                   (hours)                                  OIGs         Rating
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations                           Outreach
                    Organization to which                     Description of                            Date of
      No.                                     Represented at                        Location (City,
                     Outreach Provided                           Outreach                              Outreach
                                                Outreach                                State)
                                                 Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10




                                                                                                                                                             State OIG ARRA Monthly Report August 2009.xls
